                                CLOSEOUT FOR M98030012
,        This case came to OIG on March 26, 1998, when we received an anonymous letter
alleging that two researchers had misrepresented their credentials in a proposal to NSF. The
letter alleged that the researchers had misrepresented themselves as possessing Bachelor of
Science degrees. The researchers were Mr. -and                 Mr. (        t      h   e
subjects). The proposal, which received NSF funding, i          s        , entitled
                                                                                              n




       OIG examined the proposal and determined that neither subject had made the alleged
misrepresentations. The subjects' representations were consistent with what the letter writer
alleged the actual facts to be. We concluded that the allegation lacked substance.

         The letter writer also alleged that there was a "lack of meaningful credentialed input
into the execution of the grant's missionn caused by the departure ofa -                    senior
educator (the educator) associated with the project. OIG determined that the educator was not
the principal investigator or project director for the award and that the awardee therefore did
not have an obligation to inform NSF about this change in personnel (Grant Policy Manml
8312). OIG further determined that the alleged lack of meaningful credentialed input into the
project's execution was a management issue. When OIG receives information that raises
credible and substantive program management issues, OIG refers that information to NSF to
evaluate whether the issues warrant management action. Because the alleged lack of
meaningful credentialed input was not supported by the available evidence, OIG concluded that
this issue did not warrant a referral by OIG to NSF program management.

       This inquiry is closed and no further action will be taken on this case.




                                      page 1 of 1
